HHS/OIG, Audit -"Review of Medicare Payments For Beneficiaries With Institutional Status - HealthCarePlan,"(A-05-97-00025)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments For Beneficiaries With Institutional Status - HealthCarePlan," (A-05-97-00025)
June 30, 1998
Complete
Text of Report is available in PDF format (148 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine if Medicare payments to HealthCarePlan (HCP) were appropriate for beneficiaries
reported as institutionalized.  We determined HCP received Medicare overpayments totaling $27,201 for 31 beneficiaries
incorrectly classified as institutionalized.  The 31 beneficiaries were part of a statistical sample of 100 Medicare
beneficiaries reported as institutionalized during the period October 1, 1994 through September 30, 1996.  Based on
our sample results, we estimate that HCP received Medicare overpayments of at least $36,020 for beneficiaries incorrectly
classified as institutionalized during the audit period.